PENSION BENEFIT GUARANTY CORPORATION




  SEMIANNUAL REPORT

   TO THE CONGRESS





OFFICE OF INSPECTOR GENERAL



      OCTOBER 1, 2001 - MARCH 31, 2002

                                                                       Office of Inspector General

                                                                              April 30, 2002


The Honorable Elaine L. Chao
Chairman, PBGC Board of Directors

        It is my pleasure to submit this twenty-sixth Semiannual Report to the Congress –
the last report I will issue as PBGC Inspector General before I retire from federal service.
This report summarizes the major activities and accomplishments of the Pension
Benefit Guaranty Corporation (PBGC or Corporation) Office of Inspector General (OIG) for
the six-month period ending March 31, 2002. Our accomplishments were made possible
by the dedicated efforts of a committed and professional staff.

       Our work this reporting period has resulted in significant operational benefit to
PBGC. Our efforts were directed to increased economy, efficiency, and quality of PBGC's
operations and combating actual or potential occurrences of waste, fraud, and misuse of
Government funds. My office issued seven (7) reports in the audit area, including the
audit of PBGC’s 2001 financial statements, and two agreed-upon procedures reports for
the United States Treasury to support the federal government’s consolidated financial
statements.

        In the investigative area, we opened nineteen (19) and closed fifteen (15)
investigations. Of the investigations we closed this period, several involved federal and
contract employees who misused the Internet by accessing sexually-explicit sites from
PBGC computers. Three of our closed cases involved pension fraud. WE also closed a
long-standing proactive case involving PBGC’s issuance of checks to participants after
their death. As a result of this case, PBGC has strengthened its procedures, some pension
fraud cases have been prosecuted, and we have developed an on-going dialogue with PBGC
staff.

        To accomplish our work, I seek to maintain productive professional working
relationships with PBGC’s Executive Director, managers, employees, and the Congress.
In the next few months, I plan to retire from Federal Service. My thirteen-year tenure as
PBGC’s Inspector General afforded opportunities for personal and professional growth,
and to invest in better Government. My departure leaves the OIG with a legacy where
integrity and quality are valued and practiced. Although I embark on another journey,
the OIG stands committed to assist PBGC in meeting its important challenges.



                                            Sincerely,




                                            Wayne Robert Poll
                                            Inspector General

Enclosure
SEMIANNUAL R EPORT OF THE INSPECTOR GENERAL           PENSION BENEFIT GUARANTY CORPORATION




EXECUTIVE SUMMARY


This is the twenty-sixth semiannual report to the Congress summarizing the activities and
accomplishments of the Pension Benefit Guaranty Corporation (PBGC) Office of Inspector
General (OIG) for the period October 1, 2001 through March 31, 2002. Our efforts were
directed toward performing audits, inspections, and evaluations of the Corporation's
programs and operations; conducting several large and complex investigations; and
providing technical assistance and advice on Corporate programs.

In the audit area, we issued seven (7) reports, including:

   •    FY 2001 Financial Statement Audit (see page 2);
   •	   Two reports that support the U.S. Treasury’s preparation of United States
        Government consolidated financial statements:

        1.	 Agreed-upon Procedures to Review PBGC’s FACTS transmission
            (see page 3); and
        2.	 Agreed-upon Procedures for CFO Representations and
            Intragovernmental Activity and Balances (see page 3).


In the investigative area, we opened nineteen (19) new investigative cases during the
reporting period and closed fifteen (15) cases. Among the most significant cases closed
this period we found:

   •	   A participant falsely stated that he had not received a lump sum benefit
        payment (see page 10);
   •	   A participant attempted to fraudulently waive his spouse’s entitlement to a
        benefit, but the form was invalid, resulting in the spouse getting a benefit (see
        page 10); and
   •	   Employees and contractors misused Corporate resources by accessing
        sexually explicit sites on the Internet; OIG recommended PBGC install filtering
        software (see pages 10 and 11).


We also closed a long-standing proactive case dealing with the systemic issue of
continuing pension benefit payments to participants after their death. We worked with
agency personnel to review the large backlog of overpayments to deceased participants
and examine its processes. This resulted in changes in procedures and referrals of
cases to the OIG for investigation. We now have an on-going dialogue with PBGC
employees who deal with recovering pension payments issued after a participant’s
death, consult on potential problems and clarification of procedures, and receive
referrals for investigation and possible prosecution.


During the period, we reviewed regulations relating to a change in the Appeals Board’s
review procedures, and participated in several initiatives to improve PBGC.




MARCH 2002
                                                  i
SEMIANNUAL R EPORT OF THE INSPECTOR GENERAL                         PENSION BENEFIT GUARANTY CORPORATION




TABLE OF CONTENTS

               LETTER TO THE CHAIRMAN

               EXECUTIVE SUMMARY ....................................................................                 i


               TABLE OF CONTENTS ......................................................................               ii


               LIST OF TABLES................................................................................         iii


               INTRODUCTION .................................................................................         1


                         The Pension Benefit Guaranty Corporation
                         The Office of Inspector General

               AUDIT ACTIVITIES ...........................................................................           2


                         Overview

                         Audits and Evaluations

                         Audit Follow-up and Resolution

                         Access to Information

                         PBGC Management - Inspector General Disagreements


               INVESTIGATORY ACTIVITIES ........................................................                      9


                         Overview

                         Activity This Period

                         Significant Investigations


               OTHER OFFICE OF INSPECTOR GENERAL ACTIVITIES ...........                                               13


                         Review of Proposed Statutory and Regulatory Changes

                         OIG and Agency Consultation

                         Liaison With the United States General Accounting Office

                         Peer Review


               GLOSSARY ...........................................................................................   16





MARCH 2002
                                                              ii

SEMIANNUAL R EPORT OF THE INSPECTOR GENERAL              PENSION BENEFIT GUARANTY CORPORATION




LIST OF TABLES


       TABLE 1 - INSPECTOR GENERAL ISSUED REPORTS ......................................        6


       TABLE 2 - REPORTS ISSUED WITH QUESTIONED COSTS .............................             7


       TABLE 3 - REPORTS ISSUED WITH RECOMMENDATIONS

                  THAT FUNDS BE PUT TO BETTER USE ......................................        8


       TABLE 4 - STATISTICAL TABLES OF INVESTIGATIONS ...............................           12


       TABLE 5 - CROSS-REFERENCE TO REPORTING REQUIREMENTS

                   OF THE INSPECTOR GENERAL ACT.............................................    15





MARCH 2002
                                                  iii

SEMIANNUAL REPORT OF THE INSPECTOR GENERAL            PENSION BENEFIT GUARANTY CORPORATION




INTRODUCTION
THE PENSION BENEFIT GUARANTY CORPORATION
       The Pension Benefit Guaranty Corporation (PBGC or Corporation) was
       established under Title IV of the Employee Retirement Income Security Act of
       1974 (ERISA), as amended, 5 U.S.C. § 1301-1461, as a self-financing, wholly
       owned federal government corporation to administer the pension insurance
       program. ERISA requires that PBGC (1) encourage the continuation and
       maintenance of voluntary private pension plans; (2) provide for the timely and
       uninterrupted payment of pension benefits to participants and beneficiaries; and
       (3) maintain premiums at the lowest level consistent with carrying out PBGC's
       obligations.

       For about 44 million Americans, the PBGC provides assurance that their
       retirement benefits are safe now and for the future. The PBGC protects the
       pensions of participants in certain defined benefit pension plans, i.e., plans that
       promise to pay definitely determinable retirement benefits. Such defined benefit
       pension plans may be sponsored individually or jointly by employers and by
       unions. Currently, there are approximately 268,600 participants receiving
       benefit payments from PBGC. Additionally, in its fiscal year 2001 financial
       statement, the PBGC reported that it has assets of about $22.6 billion and
       liabilities of $14.7 billion.

THE OFFICE OF INSPECTOR GENERAL
       One of the strategic goals of the Office of Inspector General (OIG) is to assist the
       PBGC in operating more efficiently and effectively by identifying ways to improve
       PBGC's programs. To accomplish this goal, the OIG conducts agency audits,
       inspections, and investigations, and makes recommendations to and consults
       with PBGC management on findings and systemic issues. In addition, the OIG
       is required statutorily to inform the agency head of fraud and other serious
       problems, abuses, and deficiencies relating to the programs and operations
       administered or financed by the PBGC, recommend corrective action concerning
       such problems, and report on the progress made in implementing corrective
       actions.

       The OIG staff consists of twelve (12) employees, of which two are investigators.
       We have been attempting to recruit and hire an EDP auditor.

       The Chief Financial Officers Act requires that a government corporation's
       financial statements be audited by the Inspector General, unless preempted by
       the General Accounting Office (GAO). The OIG contracted with an Independent
       Public Accountant (IPA) to perform the audit of the Corporation’s FY 2001
       financial statements.




MARCH 2002                                                              P AGE 1
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL             PENSION BENEFIT GUARANTY CORPORATION




AUDIT ACTIVITIES
OVERVIEW
       The OIG provides independent analyses to management on a full range of
       PBGC's operations including programs, activities, functions, and funding. The
       OIG has full discretion in establishing audit objectives, plans, and priorities.
       During this reporting period, the OIG issued seven (7) reports (see TABLE 1) to
       help PBGC reduce costs and strengthen management controls. Below is a
       summary of the most significant of those reports. Our audits comply with
       GAO’s Government Auditing Standards, while the inspections comply with
       Quality Standards For Inspections published by the President's Council on
       Integrity and Efficiency.


AUDITS AND EVALUATIONS

       AUDIT OF THE PENSION BENEFIT GUARANTY
       CORPORATION’S FISCAL YEARS 2001 AND
       2000 FINANCIAL STATEMENTS
       (2002-2/23157-1 and 2002-3/23157-2)

       The OIG issued a report with three opinions related to the audit of PBGC’s
       financial statements of the Single-Employer Program Fund and the
       Multiemployer Program Fund for the fiscal years (FY) ended September 30, 2001
       and September 30, 2000 (see 2002-3/23157-2). PricewaterhouseCoopers, LLP
       performed the audit under the direction and general supervision of the OIG.

        •	   An unqualified opinion report was issued on the financial statements which
             opines that the financial statements fairly present, in all material respects:
             (1) the financial position of the Single-Employer and Multiemployer Program
             Funds as of September 30, 2001 and 2000, and (2) the results of their
             operations and cash flows for the years then ended in conformity with
             generally accepted accounting principles.

        •	   The report on internal control determined that PBGC had made some
             progress in addressing control issues previously reported. The reportable
             condition dealing with the need to improve controls surrounding the
             Participant Record Information System Management (PRISM) application
             was removed. However, two reportable conditions from prior semiannual
             periods remain. PBGC needs to: (1) continue in efforts to integrate its
             financial management systems and improve its systems development life
             cycle methodology; and (2) finalize and test its plan for maintaining
             continuity of operations.

       ♦	 The report on compliance with applicable laws and regulations states that,
          with respect to items tested, no instance of non-compliance was disclosed.

       In addition, the OIG issued a single-page unqualified opinion report that PBGC
       incorporated into its FY 2001 Annual Report (2002-2/23157-1).




MARCH 2002                                                              P AGE 2
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL          PENSION BENEFIT GUARANTY CORPORATION




       INDEPENDENT ACCOUNTANT’S REPORT ON
       APPLYING AGREED-UPON PROCEDURES
       (2002-4/23157-3)

       The General Accounting Office (GAO) requested the OIG to perform specific
       procedures enumerated by the U.S. Treasury related to PBGC’s submission of its
       Federal Agencies Centralized Trial-Balance System (FACTS) transmission, which
       included the Adjusted Trial Balance for the revolving and trust funds and
       selected footnote data. These procedures are performed to assist in the
       preparation of the consolidated United States Government financial statements
       for the year ended September 30, 2001.


       INDEPENDENT ACCOUNTANT’S REPORT ON

       APPLYING AGREED-UPON PROCEDURES

       FOR CFO REPRESENTATIONS FOR FEDERAL

       INTRAGOVERNMENTAL ACTIVITY AND BALANCES

       (2002-5/23157-4)


       GAO requested the OIG to perform specific procedures enumerated by the U.S.
       Treasury and related to PBGC’s submission of its CFO representations for
       Federal Intragovernmental Activity and Balances transmission. The agreed-
       upon procedures were performed to assist with the accounting for and
       eliminating intragovernmental activity and balances in the preparation of agency
       and governmentwide financial statements and reports. These procedures are
       performed to assist in the preparation of the consolidated United States
       Government financial statements for the year ended September 30, 2001.




MARCH 2002                                                           P AGE 3
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL         PENSION BENEFIT GUARANTY CORPORATION



AUDIT FOLLOW-UP AND RESOLUTION
       The audit follow-up system at PBGC is integral to effective management and is a
       shared responsibility of PBGC management and the OIG.             The OIG has
       established an audit follow-up system to document management's actions and
       assure prompt resolution of audit recommendations. Moreover, this OIG system
       provides for a record of actions taken by PBGC management on OIG and GAO
       recommendations.

       The Office of Management and Budget (OMB) Circular A-50 requires that audit
       recommendations be resolved within six (6) months of issuance. The OMB
       guidance provides that audit recommendations are resolved when agency
       management and the OIG reach agreement on firm plans of action to correct
       reported weaknesses.       Resolution, however, does not mean an audit
       recommendation is closed. The OIG closes audit recommendations only when it
       determines that corrective actions have been completed by the agency.

       In our Semiannual Listing of Audit Recommendations (OIG Report 2002-1/32103)
       we reported that there were eighty-one (81) open audit recommendations, of
       which seventy (70) were outstanding audit recommendations from prior
       reporting periods. The agency reviewed and reported to the OIG on their actions
       to address the recommendations. The OIG concurred that management had
       presented sufficient evidence to close thirty-seven (37) audit recommendations.
       We reported that forty-four (44) audit recommendations remained open on
       March 31, 2002 (Semiannual Report on Follow-up of Audit Recommendations,
       OIG Report 2002-8/32104). We continue to meet with departmental officials to
       discuss the outstanding recommendations and provide guidance on actions
       necessary to close them.

ACCESS TO INFORMATION
       Under the Inspectors General Act, the Inspector General is to have unfettered
       access to all agency records, information, or assistance when engaged in an
       investigation or audit. Whenever access to requested records, information, or
       assistance is unreasonably refused or not provided, the Inspector General must
       promptly report the denial to the agency head. During this six-month reporting
       period, the Inspector General’s access to information was not restricted.




MARCH 2002                                                          P AGE 4
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL          PENSION BENEFIT GUARANTY CORPORATION



PBGC MANAGEMENT - INSPECTOR GENERAL
DISAGREEMENTS
       Semiannually, the OIG reports on the status of all unresolved audit reports that
       are more than six months old.        These reports include: (1) reason(s) for
       unresolved reports and a timetable for their resolution; (2) actions taken or
       proposed on all unresolved reports or recommendations; and (3) age of
       unresolved recommendations.       For this reporting period, there were no
       unresolved audit reports in which PBGC management decisions are pending.
       As reported in a prior period, PBGC has disagreed with a recommendation
       contained in the Fiscal Year 1998 Financial Statement – Management Letter (99-
       8/23132-3). PBGC management commented on the Report and concurred “with
       its recommendations except for one item.”           PBGC disagreed with a
       recommendation which states that PBGC should “modify existing Insurance
       Operations Department (IOD) procedures to require retention of source
       documentation generated as a result of the participant data audits and used to
       calculate benefit payments and value the PVFB (Present Value of Future
       Benefits) liability.”

       The OIG feels strongly that in order for PBGC to adequately manage its program
       and to ensure the proper calculation of each participant’s guaranteed benefit, it
       is imperative that supporting documentation for all critical data elements be
       collected and retained. In FY 2000, PBGC sought and received permission from
       to the National Archives and Records Administration to destroy paper copies of
       source documentation from participants and plan sponsors that is imaged in the
       Image Processing System (IPS). The OIG has noted its concern about this
       destruction of paper records.

       To reiterate our concern and encourage further PBGC discussion, the OIG had
       planned to issue a “white paper” report that analyzes the data elements
       necessary to calculate guaranteed benefits and, thus, would require supporting
       source documentation. Our plans changed, however, when we got further into a
       review we are conducting at the request of the United States Senate’s Special
       Committee on Aging and Committee on Small Business (Committees). The
       Committees asked us to determine the accuracy of benefit determinations that
       PBGC issues to participants. This review includes:

        ♦   identifying the critical data elements necessary to calculate participants’
            benefits accurately;
        ♦   examining source documentation that supports these critical data elements
            of a benefit calculation; and
        ♦   recalculating the benefits of a statistically valid sample of participants.

       When our review is completed, we will issue a draft report to PBGC management
       for comment. This report will discuss the need to identify, acquire and retain
       source documentation for critical data elements. We will continue to work with
       PBGC management to resolve this disagreement.




MARCH 2002                                                            P AGE 5
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL               PENSION BENEFIT GUARANTY CORPORATION




                                           TABLE 1

                       INSPECTOR GENERAL ISSUED REPORTS
                          For The Six-month Period Ending
                                  MARCH 31, 2002

                                                       DOLLAR       DOLLAR              DOLLAR
                                                      VALUE OF     VALUE OF            VALUE OF
 REPORT                                    DATE      QUESTIONED     BETTER        UNSUPPORTED
 NUMBER           REPORT TITLE            ISSUED       COSTS      USED FUNDS         COSTS

Audits


2002-2/    Audit of Pension Benefit       1/24/02        -0-           -0-               -0-
23157-1    Corporation Fiscal Years
           2001 and 2000 Financial
           Statements (Single Page
           Report)
2002-3/    Audit of Pension Benefit       3/29/02        -0-           -0-               -0-
23157-2    Corporation Fiscal Years
           2001 and 2000 Financial
           Statements

Evaluations


2002-1/    Semiannual Listing of Audit    1/31/02         -0-           -0-               -0-
32103      Recommendations
2002-4/    Independent Accountant’s       3/4/2002
23157-3    Report on Applying Agreed
           Upon Procedures For FACTS
           Data
2002-5/    Independent Accountant’s       3/4/02          -0-           -0-               -0-
23157-4    Report on Applying Agreed
           Upon Procedures For CFO
           Representations for Federal
           Intragovernmental Activity
           and Balances
2002-7/    Peer Review of the Office of   3/18/02         -0-           -0-               -0-
23161      Inspector General of the
           Legal Services Corporation
2002-8/    Semiannual Report on           3/31/02         -0-           -0-               -0-
32104      Follow-up of Audit
           Recommendations




MARCH 2002                                                                   P AGE 6
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                                 PENSION BENEFIT GUARANTY CORPORATION




                                                    TABLE 2       *


                          REPORTS ISSUED WITH QUESTIONED COSTS

                              For The Six-month Period Ending

                                      MARCH 31, 2002



                                                                 NUMBER
                                                                      OF          QUESTIONED       UNSUPPORTED
                                                                REPORTS             COSTS             COSTS

 A.    For which no management decision has
       been made by the commencement of the
       reporting period                                               0                 -0-              -0-

 B.    Which were issued during the reporting
       period                                                         0                 -0-              -0-

       Subtotal ( Add A & B)                                          0                 -0-              -0-

 C.	   For which a management decision was
       made during the reporting period                               0                 -0-              -0-

       (i)       dollar value of disallowed costs                     0                 -0-              -0-

       (ii)	     dollar value of costs not
                 disallowed                                           0                 -0-              - 0-

 D.    For which no management decision has
       been made by the end of the reporting
       period                                                         0                 -0-              -0-

 E.    Reports for which no management
       decision was made within six months of
       issuance                                                       0                 -0-              -0-




* This statistical information is required by the Inspector General Act of 1978, as amended.




MARCH 2002                                                                                     P AGE 7
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                              PENSION BENEFIT GUARANTY CORPORATION




                                                    TABLE 3       *


                          REPORTS ISSUED WITH RECOMMENDATIONS

                             THAT FUNDS BE PUT TO BETTER USE

                               For The Six-month Period Ending

                                       MARCH 31, 2002



                                                                                     NUMBER
                                                                                        OF               DOLLAR
                                                                                    REPORTS              VALUE

 A.    For which no management decision has been made by the
       commencement of the reporting period                                              0                -0-

 B.    Which were issued during the reporting period                                     0                -0-

       Subtotal ( Add A & B)                                                             0                -0-

 C.	   For which a management decision was made during the
       reporting period                                                                  0                -0-

       (i)         dollar value of recommendations that were agreed
                   to by management                                                      0                -0-

              --   based on proposed management action                                   0                -0-

              --   based on proposed legislative action                                  0                -0-

       (ii)        dollar value of recommendations that were not
                   agreed to by management                                               0                -0-

 D.    For which no management decision has been made by the
       end of the reporting period                                                       0                -0-

       Reports for which no management decision was made
       within six months of issuance                                                     0                -0-




* This statistical information is required by the Inspector General Act of 1978, as amended.




MARCH 2002                                                                                     P AGE 8
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL           PENSION BENEFIT GUARANTY CORPORATION




INVESTIGATORY ACTIVITIES

OVERVIEW
       The Inspector General is authorized to receive and investigate complaints from
       PBGC employees, the public, and other sources concerning violations of law,
       rule, or regulation; mismanagement; gross waste of funds; abuse of authority; or
       a substantial and specific danger to the public health and safety. Individuals
       may disclose information or make complaints to the Inspector General through
       the OIG "Hotline." (See announcement on back cover page.) The Inspector
       General has a policy to protect the legal rights of whistleblowers and
       complainants. At all times, the Inspector General takes reasonable precautions
       not to disclose the identity of the complainant without that person's consent.

       When we receive an allegation, we review it to determine its sensitivity and need
       for immediate OIG investigation, or whether it can be referred to the agency for
       review and corrective action. Allegations designated as priority, e.g., those
       involving criminal violations and sensitive administrative matters, receive
       immediate attention. These investigations use more time and resources, often
       requiring a team approach. To meet these challenges, the OIG has undertaken
       many strategies to responsibly investigate allegations that are brought to us,
       including hiring former federal investigators as contractors. Even with these
       additional contract resources, we have had to cease investigation activities and
       close some cases administratively. Though we have systematically reduced our
       investigative caseload, our limited investigative staff causes an inability to
       investigate allegations timely, which is unacceptable to us.

ACTIVITY THIS PERIOD
       The OIG received nineteen (19) complaints or allegations, and closed fifteen (15)
       investigative cases during the reporting period. As of March 31, 2002, forty-nine
       (49) cases remain open (see Table 4 for investigative program statistics).

       OIG HOTLINE
       The OIG operates a separate "1-800" hotline telephone number and a Hotline
       post office box. The Hotline telephone is answered by an investigative staff
       assistant for a two-hour period, Monday through Friday; at all other times there
       is a message that provides information about the Hotline service.

       For the period October 1, 2001 through March 31, 2002, we received a total of
       eleven (11) Hotline inquiries. Eight of the eleven contacts were first-time
       inquiries relating to pension benefit questions, which were referred to the agency
       for action. The OIG provided customer assistance to three (3) individuals who
       contacted our Hotline. We did not open any cases from our Hotline contacts this
       period.




MARCH 2002                                                            P AGE 9
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL           PENSION BENEFIT GUARANTY CORPORATION



       SIGNIFICANT INVESTIGATIONS

       PENSION FRAUD CASES

       During this period, we closed three cases that raised issues of fraud relating to
       pension plans and benefits. One of our investigations found that a participant
       had falsely represented to PBGC that he had not received a lump-sum pension
       benefit. In another case, we investigated whether a pension plan participant
       had forged his wife’s signature on the form that waives the spouse’s right to
       retirement benefits. As a result of the OIG’s noting significant omissions on the
       spousal waiver form, PBGC officials decided the waiver was invalid and the
       surviving spouse is receiving a benefit. In the third case, we worked with the
       Office of the General Counsel to locate an individual who had embezzled funds
       from the pension plan for which he was trustee.


       ABUSE OF PBGC ELECTRONIC RESOURCES

       We closed several cases this period involving misuse of the Internet and e-mail.
       In one case, PBGC contractors were accessing and distributing pornography
       using PBGC’s electronic resources, including e-mail, the Internet, and photocopy
       machines. The investigation uncovered eleven (11) contract employees engaging
       in this misconduct. The contractor management was responsive to the
       investigation, and terminated their employment. In another case, we referred
       multiple Nigerian mail fraud e-mails to the Secret Service Task Force dealing
       with this issue.

       In addition, we closed a proactive case involving systemic misuse and abuse of
       PBGC’s Internet access. PBGC employees and contractors have Internet access
       from their desktop computers. Over several years, the OIG had conducted spot
       checks of Internet sites accessed from PBGC computers, and notified
       management that pornographic and other sexual-content sites were being
       accessed from PBGC computers during and after business hours. We
       recommended that PBGC take proactive steps to limit abuse/misuse of the
       Internet. In response, PBGC issued a more explicit Electronic Communications
       Policy. After we discovered the eleven contract employees that were regularly
       accessing and distributing pornography, we recommended that PBGC install
       filtering software at its Internet gateway to prohibit access to sites that contain
       sexual material. In July 2001, PBGC installed the filtering software and has
       continuously operated it since its installation.

       TRACKING DECEASED PARTICIPANTS

       We closed another long-standing proactive case this period dealing with the
       systemic issue of continuing pension benefit payments to participants after their
       death. This case was opened when we discovered that PBGC did not have a
       good way to accurately and timely identify a participant’s date of death; it was
       dependent on third-party notification. This sometimes resulted in monthly
       benefit checks issued to participants for years after they died. Even when PBGC
       discovered that “dead men were cashing checks,” PBGC was not referring these
       cases to the OIG for an investigation of who was perpetrating the fraud. We
       worked with agency officials to review the large backlog of overpayments to
       deceased participants and examine its processes. The focus on this issue
       resulted in PBGC drafting new procedures, including obtaining timely death
       matching with the Social Security Administration, more consistent issuance of
       repayment demand letters, and a requirement to refer matters to the OIG for
       investigation and possible prosecution. Through our investigations from these
       referrals, we have obtained some voluntary agreements to repay; others we have


MARCH 2002                                                             P AGE 10
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL         PENSION BENEFIT GUARANTY CORPORATION



       successfully prosecuted and obtained a restitution order. A number of cases,
       however, were closed without prosecution, though the fraud occurred. For
       example, some cases were too old to obtain evidence to determine who had
       perpetrated the fraud. Others involved cases of no prosecutorial merit, e.g, an
       elderly spouse who cashed the checks after the participant died.

       Because of this proactive case, we developed an on-going dialogue with PBGC
       employees who deal with recovering pension payments issued after a
       participant’s death, consult on potential problems and clarification of
       procedures, and receive referrals for investigation and possible prosecution.




MARCH 2002                                                          P AGE 11
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                              PENSION BENEFIT GUARANTY CORPORATION




                                                     TABLE 4

                            STATISTICAL TABLES OF INVESTIGATIONS

                                For The Six-month Period Ending

                                        MARCH 31, 2002



CASE LOAD

                    Pending beginning of period                                                    45
                    Opened this period**                                                           20
                    Closed this period                                                             15
                    Pending end of period ***                                                      50


WRONGDOING ALLEGED (CASES OPENED)

                    Fraud, Waste & Abuse                                                            7
                    Wrongdoing                                                                      4
                    Improprieties Relating to Pension Benefits                                      8
                    Proactive                                                                       1


RESULTS OF CASES CLOSED

                    Allegation disproved or not substantiated                                       2
                    Referred to other law enforcement agency                                        1
                    Worked with agency to develop corrective actions                                5
                    Fraudulent waiver of spousal pension benefits                                   1
                    Theft/Perpetrator Unidentified                                                  2
                    Contractor Employees Disciplined                                                2
                         (11 employees removed)

                    Administrative Closing                                                          2




HOTLINE AND MAIL INQUIRIES

                    Received this period                                                           11

                              First time caller referrals to agency                     6
                              Mail referrals to agency                                  2
                              OIG Customer Assistance                                   3
                              Cases opened                                              0




** Of the nineteen new cases opened this period, none resulted from Hotline and mail inquiries.
*** Thirty-five of the fifty investigative cases that are open are from prior reporting periods.


MARCH 2002                                                                                     P AGE 12
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL          PENSION BENEFIT GUARANTY CORPORATION




OTHER OFFICE OF INSPECTOR
GENERAL ACTIVITIES
REVIEW OF PROPOSED STATUTORY
AND REGULATORY CHANGES

       To comply with the IG Act, the OIG Legal Counsel is notified by the Office of the
       General Counsel when the agency is proposing legislative and regulatory
       changes. During this period, the agency circulated regulations that would
       permit one Appeals Board member to decide “routine appeals.” This was an
       amendment of the regulation that required 3-member panel decisions. We
       provided written comments on two issues, the definition of “routine appeals” and
       the fact that PBGC was going to issue this change as a final rule, thereby
       precluding public comment. We also met with the Office of the General Counsel
       to discuss these concerns. PBGC issued proposed regulations for public
       comment in March.


OIG AND AGENCY CONSULTATION

       The OIG engaged in several activities this period that included coordination and
       consultation with agency officials to improve agency operations.

       •	   The Inspector General is serving as a resource to PBGC’s Accuracy of
            Benefits Team.

       •	   We continue to participate in a PBGC multi-departmental team that
            addresses financial management systems integration.

       •	   The Inspector General is serving as a resource to PBGC’s Government
            Paperwork Elimination Task Force.

       •	   The Deputy Inspector General continues to participate actively in a
            mentoring alumni group that encourages continued growth after
            participation in PBGC’s Mentoring Program. The Deputy IG’s participation
            includes a working group that is developing an electronic Yellow Pages to
            serve as a locator and a knowledge-sharing tool for PBGC employees.
            During this period, the working group planned and conducted eight focus
            groups to get feedback on the design and content of the Yellow Pages.




MARCH 2002                                                            P AGE 13
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL            PENSION BENEFIT GUARANTY CORPORATION




LIAISON WITH THE UNITED STATES
GENERAL ACCOUNTING OFFICE
       The OIG maintains close liaison with GAO. During the reporting period, GAO
       initiated a study of the PBGC’s premium rate structure and the premium
       compliance program.


PEER REVIEW
       As a member of the Executive Council on Integrity and Efficiency, the OIG was
       requested to perform a peer review of another agency’s Office of Inspector
       General. The objectives of this peer review were to determine whether the
       organization’s: (1) quality control system for audits was adequate, in place, and
       operating effectively; (2) established policies, procedures, and applicable auditing
       standards were being followed in its audit work.




MARCH 2002                                                              P AGE 14
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL               PENSION BENEFIT GUARANTY CORPORATION




                                             TABLE 5

                            CROSS-REFERENCE TO REPORTING
                      REQUIREMENTS OF THE INSPECTOR GENERAL ACT

The table below cross-references the reporting requirements prescribed by the Inspector
General Act of 1978, as amended, to the specific pages in the report where they are
addressed.


  Inspector General
    Act Reference      Reporting Requirements                                          Page


Section 4 (a) (2)      Review of legislation and regulations.                           13

Section 5 (a) (1)      Significant problems, abuses, and deficiencies.                 2 – 3,
                                                                                        10

Section 5 (a) (2)      Recommendations with respect to significant problems,           2 – 3,
                       abuses, and deficiencies.                                        10

Section 5 (a) (3)      Prior significant recommendations on which corrective             5
                       actions has not been completed.

Section 5 (a) (4)      Matters referred to prosecutive authorities.                    None

Section 5 (a) (5)      Summary of instances where information was refused.               4


Section 5 (a) (6)      List of audit reports by subject matter, showing dollar           6
                       value of questioned costs and funds put to better use.


Section 5 (a) (7)      Summary of each particularly significant report.                2 – 3,
                                                                                        10

Section 5 (a) (8)      Statistical table showing number of reports and dollar            7
                       value of questioned costs.

Section 5 (a) (9)	     Statistical table showing number of reports and dollar            8
                       value of recommendations that funds be put to better
                       use.

Section 5 (a) (10)	    Summary of each audit issued before this reporting              None
                       period for which no management decision was made by
                       end of reporting period.

Section 5 (a) (11)     Significant revised management decisions.                       None

Section 5 (a) (12)     Significant management decisions with which the                   5
                       Inspector General disagrees.




MARCH 2002                                                                  P AGE 15
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL             PENSION BENEFIT GUARANTY CORPORATION




GLOSSARY
The following defines the terms used in this report.


Questioned Cost	       A cost the OIG has questioned because of an alleged
                       violation of law, regulations, contract, grant, cooperative
                       agreement, or other agreement or document governing the
                       expenditure of funds; such cost is not supported by
                       adequate documentation; or the expenditure of funds for the
                       intended purpose is unnecessary or unreasonable.

Unsupported Cost	      A cost the OIG has questioned because of a lack of adequate
                       documentation at time of the audit.

Disallowed Cost	       A questioned cost that management, in a management
                       decision, has sustained or agreed should not be charged to
                       the government.

Funds To Be Put To Funds the OIG has identified in an audit recommendation
Better Use	        that could be used more efficiently by reducing outlays,
                   deobligating program or operational funds, avoiding
                   unnecessary expenditures, or taking other efficiency
                   measures.

Management             Management's evaluation of audit findings and
Decision               recommendations and issuance of a final decision
                       concerning management's response to such findings and
                       recommendations.

Final Action	          The completion of all management actions -- that are
                       described in a management decision -- with respect to audit
                       findings and recommendations. If management concluded
                       no actions were necessary, final action occurs when a
                       management decision is issued.


Misconduct	            Action of employees or contractors that violates law, rules,
                       or regulations for which corrective action is warranted.




MARCH 2002                                                              P AGE 16
IF   YOU WANT TO REPORT OR DISCUSS CONFIDENTIALLY
ANY INSTANCE OF MISCONDUCT, FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT, PLEASE CONTACT THE    OFFICE   OF

INSPECTOR GENERAL.


You can telephone:

          The Inspector General's HOTLINE

                     1-800-303-9737


Or you can write:

        Pension Benefit Guaranty Corporation

             Office of Inspector General

                   P.O. Box 14640

            Washington, D.C. 20044-4640

